i

Supreme Court
STATE OF ARIZONA

ROBERT BRUTINEL
Chief Justice

TRACIE K. LINDEMAN
Clerk of the Court

ARIZONA STATE COURTS BUILDING
1501 WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 8SD07
TELEPHONE: (S02) 451,3396

May 10, 2021

RE:

CAMMIE L MARCEAUX v TIFFANY & BOSCO BA et al
Arizona Supreme Court No. CV-20-0303-PR
Court of Appeals, Division One No. 1 CA-CV 19-0600
Maricopa County Superior Court No. CV2019-000496

GREETINGS:
The following action was taken by the Supreme Court of the State
of Arizona on May 10, 2021, in regard to the above-referenced
cause:
ORDERED: Petition for Review = DENIED.
A panel composed of Chief Justice Brutinel, Justice Bolick,
Justice Beene, and Justice Montgomery participated in the
determination of this matter.
Trade K. Lindeman, Clerk
TO:
Carnmie L Marceaux
Leonard J McDonald Jr
Michael F Bosco
Jamey A Thompson
Brian J Cosper
Andrew M Jacobs
Daniel J Inglese
Amy M Wood
pm

The foregoing instrument is a full, true and correct
copy of the original on file in this office
ATTEST^________ ~
----------------------Trade K. Lindeman, Clerk of the Supreme Court
Stats of Arisen*

By.

j/wr~

.Deputy

NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME COURT 111(c), THIS DECISION IS NOT PRECEDENTIAL
AND MAY BE CITED ONLY AS AUTHORIZED BY RULE.

IN THE

Arizona Court of Appeals
Division One
CAMMIE L. MARCEAUX, Plaintiff/Appellant,
v.
TIFFANY & BOSCO, P.A., et al., Defendants/Appellees.
No. 1 CA-CV 19-0600
FILED 6-25-2020
Appeal from the Superior Court in Maricopa County
No. CV2019-000496
The Honorable Roger E. Brodman, Judge
AFFIRMED
COUNSEL
Cammie L. Marceaux, Fred, TX
Plaintiff/Appellant
Tiffany & Bosco, PA, Phoenix, AZ
By Leonard J. McDonald, Jr, Michael F. Bosco
Counsel for Appellee Tiffany & Bosco, PA
Fidelity National Law Group, Phoenix, AZ
By Jamey A. Thompson, Brian J. Cosper
Counsel for Defendants/Appellees Fidelity National Title Agency Inc., Lawyers
Title Agency

MARCEAUX v. TIFFANY & BOSCO, et al.
Decision of the Court
Snell & Wilmer, LLP, Phoenix, AZ
By Andrew M. Jacobs, Daniel J. Inglese
Counsel for Defendants/Appellees Wells Fargo Bank, NA and U.S. Bank National
Association

MEMORANDUM DECISION
Presiding Judge David D. Weinzweig delivered the decision of the Court,
in which Judge Jennifer M. Perkins and Judge James B. Morse Jr. joined.

WEINZWEIG, Judge:
Cammie L. Marceaux appeals the superior court's order
dismissing her lawsuit against Wells Fargo Bank, N.A. ("Wells Fargo"), U.S.
Bank National Association ("U.S. Bank"), Tiffany & Bosco, P.A., Fidelity
National Title Agency, Inc. ("Fidelity") and Lawyers Title Agency
("Lawyers Title").1 We affirm.

Hi

FACTS AND PROCEDURAL BACKGROUND
Marceaux bought a home in 2006 and financed the purchase
112
with a loan. She secured the debt by giving a deed of trust on the home.
Wells Fargo became the servicer on the loan. In 2017, the deed of trust was
assigned to U.S. Bank, who became the beneficiary.
Marceaux tried selling the home in 2017 but discovered a
113
cloud on her title and the sale fell through. Marceaux defaulted on her loan
payments. She filed a claim with her title insurer, Fidelity, alleging that her
title was defective. Fidelity covered the claim, concluding that a previous
owner still held title because earlier deeds had not been recorded. Fidelity
procured and recorded a quitclaim deed for Marceaux and settled her
claim.
Marceaux sued various defendants in a July 2017 lawsuit,
f4
including Fidelity, Wells Fargo and U.S. Bank, alleging fraud and quiet title

1
Wells Fargo Bank, N.A. is the successor by merger with Wells Fargo
Home Mortgage, Inc.
2

MARCEAUX v. TIFFANY & BOSCO, et al.
Decision of the Court
and claiming her title was still clouded ("first lawsuit").2 Wells Fargo
initiated a trustee's sale on the home because Marceaux remained in default
on her loan payments. Wells Fargo appointed Leonard McDonald of
Tiffany & Bosco as trustee. Marceaux sold the home before any trustee's
sale occurred. Lawyers Title was the escrow agent. The superior court
granted motions to dismiss the first lawsuit with prejudice.
Marceaux appealed the dismissal of her first lawsuit and filed
a second lawsuit against Wells Fargo, U.S. Bank, Fidelity, Lawyers Title and
TB ("second lawsuit"), again stemming from her now-former home, again
alleging fraud and claiming the defendants forced her to sell the home
under duress with threats of foreclosure. During the appeal, this court
affirmed the superior court's dismissal of the first lawsuit, Marceaux v.
Baker, 1 CA-CV18-0542, 2019 WL 5701736 (Ariz. App. Nov. 5, 2019) (mem.
decision). The superior court then granted motions to dismiss the second
lawsuit with leave to amend. Marceaux amended her complaint, which the
court dismissed with prejudice. Marceaux appeals. We have jurisdiction
under A.R.S. § 12-2101(A)(1).

15

DISCUSSION

16

The superior court's ruling on a Rule 12(b)(6) motion to
dismiss is reviewed de novo, Coleman v. City of Mesa, 230 Ariz. 352, 355-56,
| 7 (2012), and the motion is granted if the complaint fails to state a claim
upon which relief can be granted. The court "assume[s] the truth of all wellpleaded factual allegations and indulge [s] all reasonable inferences from
those facts," id. at | 9, but does not accept as true "allegations consisting of
conclusions of law, inferences or deductions that are not necessarily
implied by well-pleaded facts, unreasonable inferences or unsupported
conclusions from such facts, or legal conclusions alleged as facts," Jeter v.
Mayo Clinic Ariz., 211 Ariz. 386, 389, ^ 4 (App. 2005).
We address two preliminary issues. First, Marceaux's
V
opening and responsive briefs contain undeveloped arguments,
unsupported facts and inadequate record citations as required under
Arizona Rule of Civil Appellate Procedure 13(a). Marceaux was told about
this court's procedural requirements in her earlier appeal, where her briefs
had similar defects. Marceaux, 1 CA-CV 18-0542, at *2, f 8. Even so, we

2

We grant Wells Fargo and U.S. Bank's motion to take judicial notice
of documents filed by Marceaux in the first lawsuit.
3

MARCEAUX v. TIFFANY & BOSCO, et al.
Decision of the Court
consider the merits of her appeal in our discretion. See Lederman v. Phelps
Dodge Corp., 19 Ariz. App. 107,108 (1973).
Second, the superior court found that Marceaux had not
complied with Arizona Rule of Civil Procedure 8(a) and dismissed her
claims against defendants Tiffany & Bosco, Fidelity and Lawyers Title on
that basis, among others. We agree that Marceaux's amended complaint is
"garbled and difficult to follow," but will construe it as best we can to do
justice under Rule 8(f).

H8

I.

Wells Fargo and U.S. Bank

The superior court dismissed Marceaux's claims against
V
Wells Fargo and U.S. Bank on grounds of res judicata and for failure to state
a claim. The doctrine of res judicata promotes finality in litigation, the
prevention of harassment and judicial economy. Circle K Corp. v. Indus.
Comm'n ofAriz., 179 Ariz. 422, 426 (App.1993). "[Res judicata] is a question
of law and is therefore reviewed de novo." Pettit v. Pettit, 218 Ariz. 529,531,
1 4,189 P.3d 1102,1104 (App. 2008).
Under the doctrine of res judicata, a judgment
on the merits in a prior suit involving the same
parties or their privies bars a second suit based
on the same cause of action. This doctrine binds
the same party standing in the same capacity in
subsequent litigation on the same cause of
action, not only upon facts actually litigated but
also upon those points which might have been
litigated.
Id.

Ifio

Marceaux's first lawsuit alleged that Wells Fargo and U.S.
Bank covered up a title defect and improperly assigned her mortgage. The
superior court dismissed the first lawsuit and we affirmed. Marceaux, 1 CACV 18-0542, at *4, f 22. Her second lawsuit then alleged that Wells Fargo
and U.S. Bank conducted an "illegal foreclosure through fraud and
forgery," again premised on the alleged improper and invalid assignment.
Res judicata bars the claim. Dressier, 212 Ariz. at 282, If 15; Ariz. R. Civ. P.
41(b) (dismissal with prejudice "operates as an adjudication on the merits");
Cochise Hotels, Inc. v. Douglas Hotel Operating Co., 83 Ariz. 40, 47-48 (1957)
(stating that dismissal of complaint with prejudice in previous action is res
judicata on all issues raised or that could have been determined). We
affirm.
4

MARCEAUX v. TIFFANY & BOSCO, et al.
Decision of the Court
The superior court also dismissed the lawsuit against Wells
Fargo and U.S. Bank for failure to state a claim. We affirm because Arizona
courts have not yet recognized a claim for wrongful foreclosure, Zubia v.
Shapiro, 243 Ariz. 412,417,129 (2018), and because there was no foreclosure
in this case.

Ifll

II.

Tiffany & Bosco

The superior court dismissed the claims against Tiffany &
Bosco as trustee for failure to state a claim. Marceaux alleged that the
trustee "neglectfully" "conducted] an illegal foreclosure" that ultimately
forced her to sell her home against her will. But Arizona law grants a
trustee the "absolute right to rely upon any written direction or information
furnished to him by the beneficiary." A.R.S. § 33-820(A). Marceaux
defaulted on her loan. The trustee performed as the beneficiary directed.
We affirm.

1fl2

III.

Fidelity and Lawyers Title

Marceaux's first and second lawsuit alleged that Fidelity
failed to disclose title defects related to her home and committed
unspecified fraud. The superior court dismissed the claims with prejudice
in the first lawsuit. Res judicata applied and the claims were correctly
dismissed in the second lawsuit. Dressier, 212 Ariz. at 282, f 15. We affirm.

1fl3

Marceaux's claims against Lawyers Title and Fidelity also fail
114
for failure to state a claim. She alleges these defendants coerced her into
selling the house. Marceaux was in default at the time, however, and a
threat of foreclosure does not constitute duress unless the threat is
wrongful. See Dunbar v. Dunbar, 102 Ariz. 352, 356 (1967). Marceaux also
failed to plead the alleged fraud with particularity. Her amended
complaint alleges no specific facts, only conclusory allegations. Ariz. R.
Civ. P. 9(b). We affirm.

5

MARCEAUX v. TIFFANY & BOSCO, et al.
Decision of the Court
CONCLUSION
We affirm the superior court's decision.
We award
115
reasonable attorney fees and costs to Tiffany & Bosco under A.R.S. § 33807(E). We award costs on appeal to Fidelity and Lawyers Title as the
prevailing parties, A.R.S. § 12-342, but decline in our discretion to sanction
Marceaux for attorney fees, ARCAP 25.

AMY M. WOOD • Clerk of the Court
FILED: AA

6

/
IN THE

COURT OF APPEALS
STATE OF ARIZONA
DIVISION ONE
CAMMIE L. MARCEAUX,

)
)

Plaintiff/Appellant, )

DIVISION ONE
FILED: 10/3/19
AMY M. WOOD,
CLERK
BY: RB

Court of Appeals
Division One
No. 1 CA-CV 19-0600

)

v.
TIFFANY & BOSCO

)
)
)

PA, et al.,

Maricopa County
Superior Court
No. CV2019-000496

)

rtSiKrt-WESUPERWRCOURT

Defendants/Appellees. )

FILER

\o. ft irt k.'Ajgp'
ORDER STAYING APPEAL

C.GJcStena.D3^

The court has reviewed the record pursuant to its duty to determine
whether it has jurisdiction over this appeal.

See Sorensen v. Farmers

Ins. Co., 191 Ariz. 464, 465 (App. 1997).
Arizona Rule of Civil Procedure (Rule)

54(c) provides that " [a]

judgment as to all claims and parties is not final unless the judgment
recites that no further matters remain pending and that the judgment is
entered under Rule 54(c)."

See Brumett v. MGA Home Healthcare, L.L.C. ,

240 Ariz. 421, 427, 1 6 (App. 2016).

The judgment from which appellant

appeals cites Rule 54 (c) but does not recite that no further matters remain
pending.

Therefore,

pursuant

to Arizona

Rule

of

Civil Appellate

Procedure 3(b),
IT IS ORDERED staying this appeal to and including November 4, 2019,
and revesting jurisdiction in the Superior Court of Maricopa County to
permit that court to consider a motion by appellant for a signed judgment

with

a

certification

of

finality pursuant

to

Rule

54(c).

It

is

appellant's responsibility to promptly apply to the superior court for
such judgment.

This order does not constitute an expression of opinion

by this court as to the merits of the motion.
IT IS FURTHER ORDERED that the superior court is authorized to rule
on the motion.
IT IS FURTHER ORDERED that if the superior court grants the motion,
appellant shall file a copy of the judgment within 10 days after its entry.
Once the clerk of this court has received the judgment, the appeal shall
be automatically reinstated.
IT IS FURTHER ORDERED that if the appeal has not been reinstated by
the filing of a judgment with Rule 54(c) finality language by November
4, 2019, appellant shall file a request to continue the stay of the appeal
that describes the status of the motion.

If appellant does not file a

request to continue the stay, the appeal may be dismissed.
IT IS FURTHER ORDERED that if a Rule 54(c) judgment has been filed
prior to November 4, 2019, the case management statement shall be due on
November 14, 2019, and the opening brief shall be due on December 4, 2019.
IT IS FURTHER ORDERED that, in addition to the usual distributions,
the clerk of this court shall send copies of this order to the Honorable
Roger E. Brodman and to the clerk of the superior court.

________/s/________________________
Melina Brill, Judge Pro Tempore

V

A copy of the foregoing
was sent to:
Cammie L Marceaux
Leonard J McDonald Jr
Michael F Bosco
Patrick J Davis
Jamey A Thompson
Gregory J Marshall
Hon Roger E Brodman
Jeff Fine

I

Clerk of the Superior Court
*** Electronically Filed***
07/22/2019 8:00 AM
SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CV 2019-000496

07/19/2019
CLERK OF THE COURT
M. Corriveau

HONORABLE ROGER E: BRODMAN

Deputy

CAMMIE L MARCEAUX

CAMMIE L MARCEAUX
PO BOX 335
FREDTX 77616

V.

TIFFANY & BOSCO L L P, et al.

LEONARD J MCDONALD

JAMEY ANDERSON THOMPSON
JOSHUA ZIMMERMAN
A

RULING ON MOTIONS TO DISMISS

The Court has before it three motions to dismiss: 1) Tiffany & Bosco, PA’s motion to
dismiss filed May 17,2019; 2) Fidelity National Title Agency, Inc. and Lawyers Title Agency’s
motion to dismiss filed June 3,2019; and 3) Wells Fargo Baltic NA.’s motion to dismiss filed
May 22,2019. The Court reviewed Ms. Marceaux’s oppositions and the replies. The Court
reviewed the Complaint and the Amended Complaint. The Court also had access to the original
motions to dismiss and plaintiffs response to those motions.
I
Both the Complaint and Amended Complaint are garbled and difficult to follow. Based
on a review of records attached to plaintiffs Complaint and Amended Complaint, it looks like
die following happened: plaintiff owned a home in Surprise. She bought the home in 2006 for
$182,800 with $58,000 down. Due to a medical issue with her son, she tried to sell the home in
2017. When she tried to sell it, she learned that there was some sort of a title defect The sale
price was for $205,000. She did not sell the home. Plaintiff alleges the failure to sell was the
ijesult of the failure of Fidelity as title insurer and a conspiracy between defendants. The title
Docket Code 019

FormVOOOA

Page ! ;
;
l
?

!
!

?

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CV 2019-000496

07/19/2019

insurance company claims that the sale failed because there were problems with the property.
This apparently occurred while plaintiff was living in Texas and renting her home. She alleges
her tenants moved out in preparation for the sale.
|
In any event, plaintiff later says she was happy that the sale didn’t go through and the
failure was a godsend. See Plaintiff’s Response to the first motion to dismiss dated April 7,2019
at page 4. After the sale fell through, plaintiff; who had been living in Texas, decided to return to
Arizona. But in the summer of 2017, plaintiff was in default on her mortgage payments. See,
eig.j Amended Complaint Exh. 7 (June 15,2017 letter). She applied for refinancing with Wells
F srgo. Wells Fargo denied her requests for refinancing because she did not have sufficient
demonstrable income. See April 7,2019 Response at Attachment 8.
Wells Fargo’s records indicate that plaintiff fell behind on her mortgage payments. In an
earlier pleading, plaintiff acknowledged that by August 2017 she was three months behind on her
mortgage payments. See April 7,2019 Response at page 6. In March 2018, the Wells Fargo
defendants initiated a trustee’s sale. Tiffany & Bosco was the trustee for the sale. The notice of
trustee's sale was filed on March 9,2018 in document 2018 - 0180618. Under the threat of a
trustee’s sale, it appears plaintiff sold the house on her own to F&F 3, LLC on March 8,2018.
Lawyers Title served as escrow agent for the transaction. The gross proceeds of the sale were
$177,500. See Exh. 23 to the Amended Complaint Because plaintiff sold the property, the
trustee’s sale was cancelled. In the sale to F&F, plaintiff netted $16,196 above the mortgage.
Plaintiff now alleges that she was forced to sell the house because of the defendants’
conduct and she did so under duress.
J
Plaintiff’s claim appears to be that she was forced to sell her home at great loss due to toe
actions of defendants. She claims she had paid $58,000 down on toe home and had fully paid
$38,000 for a pool. She alleges that she had $100,000 of equity in the home. She claims that the
Wells Fargo defendants had no right to initiate foreclosure proceedings and she alleges that the
defendants conspired to fraudulently steal her home.
!

1. Tiffany & Bosoo’s Motion to Dismiss
This is Tiffany & Bosco’s second motion to dismiss. On April 24,2019, this Court
granted Tiffany & Bosco’s motion to dismiss with leave to amend. In response to that motion,
plaintiff filed toe Amended Complaint. The Amended Complaint does not cure toe deficiencies.
The Court grants Tiffany & Bosco’s motion for reasons set forth in toe Reply. The
Amended Complaint continues to violate Rule 8. It is not a “short and plain statement of toe
claim showing that the pleader is entitled to relief.”
FormVOOOA
Page 2
Docket Code 019

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
07/19/2019

CV 2019-000496

In ruling on a motion to dismiss, the Court will assume the truth of well-pled factual
allegations and indulge all reasonable inferences therefrom. Cullen v. Auto-Owners Ins. Co., 218
Ariz. 417,419 (2008). Nevertheless, conclusory allegations and unwarranted deductions are not
sufficient to state a cause of action. Id. at 419. Here, plaintiff has foiled to set forth sufficient
non-conclusory facts that support the claim that Tiffany & Bosco failed to comply with any
obligations set forth in Arizona’s deed of trust statutes or in the Deed of Trust itself. Arizona law
provides protection to the trustees, permitting absolute reliance on the direction or information
provided to them by the beneficiary. See A.R.S. §33-820(A); Cervantes v. Countrywide Home
Loans, Inc., 656 F. 3d 1034,1045 (9* Cir. 2001). Section 33-820 provides that a trustee, when
acting in good faith, shall have “the absolute right to rely upon any written direction or
information furnished to him by the beneficiary.” There is no question that plaintiff was in
default of her mortgage payments and that Tiffany & Bosco was operating under instructions of
the beneficiary. The so-called “Attorney Manual” is not the basis of a claim by plaintiff against
the trustee.
2. Fidelity’s and Lawyers Title’s Motion to Dismiss
Fidelity and Lawyers Title also filed a prior motion to dismiss. The Amended Complaint
still does not clearly set forth a cause of action. The Court grants Fidelity's and Lawyers Title’s
motion under Rule 8.
Moreover, Fidelity was a defendant in a prior action, CV 2017-053676. Plaintiff sued
Fidelity for fraud, and Judge Hannah dismissed that action with prejudice on February 8,2018.
Judge Hannah also dismissed the claim that that Fidelity, as title insurer, negligently failed to
discover a title defect. Id. at page 3. The claims against Fidelity in the instant case are barred by
res judicata.
Finally, plaintiff was in default of her mortgage. The threat of foreclosure does not
constitute duress. The Amended Complaint does not allege facts that reasonably support the
conclusion that Lawyers Title threatened or conspired against plaintiff. Plaintiff’s own
documents show that Lawyers Title simply acted as the escrow agent for plaintiff’s sale of the
property to a third party. Plaintiff’s conspiracy claim is based on unsupported speculation and
illogical conclusions. Plaintiff is alleging that defendants were engaged in a conspiracy to
defraud her. Fraud must be pled with particularity, but she has foiled to plead non-conclusory
facts with particularity.

/

Docket Code 019

FormVOOOA

Page 3 i|

i

\

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
07/19/2019

CV 2019-000496
3. Wells Fargo's Motion to Dismiss

Plaintiff filed an earlier case against Wells Fargo in CV2017-053676. Maricopa County
Superior Court Judge Hannah granted Wells Fargo’s motion to dismiss that case with prejudice.
See Minute Entry dated February 8,2018. In so ruling, he determined that plaintiff did not
explain “with particularity” what Wells Fargo did that constitutes fraud. Judge Hannah found
that plaintiff failed to allege facts suggesting that Wells Fargo was in any way responsible for
problems with the title. The issue of Wells Fargo’s ability to foreclose was at issue in that case
because Judge Hannah denied plaintiffs request for “an order that would prohibit Wells Fargo
from exercising its rights as a secured creditor.” Id. at page 2. Plaintiff apparently has appealed
Judge Hannah’s ruling.
Plaintiff’s claims against Wells Fargo are barred by resjudicata. In both cases, plaintiff
alleged that the Assignment of the Deed of Trust was forged or invalid, which made the
foreclosure proceedings improper. In both cases, plaintiff claimed that Wells Fargo could not
enforce its rights as a secured creditor. In both cases, plaintiff challenged the ability of Wells
Fargo to institute a trustee’s sale.
In short, there has been “a final judgment on the merits in a prior suit involving the same
parties or their privies [which] bars [this] second suit based on the same claim.” Dressier v.
Morrison, 212 Ariz. 279,282, f 15 (2006).
The Court adopts the arguments made by Wells Fargo in the Reply. Plaintiff’s liability
under the note remains the same no matter who was assigned as the beneficiary, or when. There
is nothing illegal about securitization, and securitization does not affect the validity of the Deed
of Trust. Wells Fargo is the servicer on the note and entitled to enforce the Deed of Trust upon
plaintiff’s default. The Court rejects plaintiff’s claim that the Wells Fargo Defendants could hot
initiate the trustee’s sale because they had never loaned plaintiff money.
ORDERS
IT IS ORDERED that Tiffany & Bosco’s motion to dismiss is granted with prejudice.
IT IS ORDERED that Fidelity’s and Lawyers Title’s motion to dismiss is granted with
prejudice.

IT IS ORDERED that Wells Fargo’s motion to dismiss is granted with prejudice.

Docket Code 019

Form VOOOA

Page 4

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CV 2019-000496

07/19/2019

IT IS FURTHER ORDERED that, within 10 days ofthe filed date of this Order, the
defendants consult with each other and submit a single, proposed final judgment applicable to
all three defendants containing Rule 54(c) language.
IT IS FURTHER ORDERED that any party seeking an award of fees or costs should
submit its claim within 10 days of the filed date of this Order, otherwi se the claim will be
waived.

Form V000A

Docket Code 019

Page 5 i;!
j

u

Additional material
from this filing is
available in the
Clerk's Office.

